Case 3:18-cv-01758-MJR Document 36 Filed 05/24/21 Page 1 of 2 Page ID #409
Filed: 05/24/2021
Pages: 2
Document: 14
Case: 19-1337

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen
United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
AMENDED May 24, 2021
April 9, 2019
Before
WILLIAM J. BAUER, Circuit Judge
FRANK H. EASTERBROOK, Circuit Judge
DIANE P. WOOD, Circuit Judge
MARC NORFLEET,
Plaintiff - Appellant
No. 19-1337

v.
JOHN R. BALDWIN, et al.„
Defendants - Appellees

Originating Case Information:
District Court No: 3:18-cv-01758-MJR
Southern District of Illinois
District Judge Michael J. Reagan
The following are before the court:
1.

AFFIDAVIT ACCOMPANYING MOTION FOR PERMISSION TO APPEAL
IN FORMA PAUPERIS, filed on March 14, 2019, by the pro se appellant.

2.

PLRA MEMORANDUM IN SUPPORT OF MOTION FOR LEAVE TO
PROCEED ON APPEAL IN FORMA PAUPERIS, filed on March 14, 2019, by
the prose appellant.

A-ge-vjgw-Qf-this rase indicates that the appellant is not permitted to proceed in forma
pauperis under 28 U.S.C.§ 1915(g). The district court properly determined that, on three
or more prior occasions, the appellant ha!s brought an action that was dismissed on the

mppiWp-'A

Case 3:18-cv-01758-MJR Document 36 Filed 05/24/21 Page 2 of 2 Page ID #410
Case: 19-1337
Document: 14
Pages: 2
Filed: 05/24/2021
No. 19-1337
Page 2
grounds that it is frivolous or fails to state aclaim upon which relief maybe granted.Norfleet v. Baldwin, No.l8-cv-01758 (S.D.I11. dismissed Dec. 4, 2018); Norfleet v. MillerPickering, No.l8-cv-00564 (S.D. Ill. dismissed Sept. 20, 2018), aff'd as frivolous, No. 183187 (Jan. 24, 2019). In this case, the appellant has not demonstrated imminent danger of
a serious physical injury pursuant to § 1915(g). See Taylor v. Watkins, 623 F.3d 483 (7th
Cir. 2010). A prisoner who has accumulated three strikes but brings an appeal without
prepayment in violation of § 1915(g) commits a fraud on the court by seeking
permission to proceed in forma pauperis after a judge has held that § 1915(g) applies to
that person, and this fraud requires the immediate termination of the suit and an order
for bidding further litigation. Sloan v. Lesza, 181 F.3d 857, 859 (7th Cir. 1999); Neiulin v.
Helman, 123 F.3d 429, 436-37 (7th Cir. 1997). Accordingly,
IT IS ORDERED that the motion for leave to proceed on appeal in forma pauperis is
DENIED and the appeal is DISMISSED. Until Marc Norfleet has paid in full all
outstanding fees and any sanctions in all civil actions he has filed, the clerks of all
federal courts in this circuit will return unfiled any papers submitted either directly or
indirectly by or on behalf of Norfleet. This order does not apply to criminal cases or
petitions challenging the terms of his confinement and maybe reexamined jn two years
under the approach of Newlin, 123 F.3d at 436-37, and Support Systems Int'l Inc. v. Mack,
45 F.3d 185,186-87 (7th Cir. 1995).
This order does not apply to any suit that Norfleet files while in imminent danger of
serious physical injury, and that requests judicial aid in bringing that danger to an end.
Whether such a danger exists is a question for the district judge, and Norfleet's claim of
danger will not be automatically accepted. But if such a claim is made, clerks of court
will accept Norfleet's papers until the district judge rules on the claim.

form name: c7_Order_3J

(form ID: 177)

pd.W#

Case 3:18-cv-01758-MJR Document 17 Filed 12/04/18 Page 1 of 7 Page ID #172

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS
MARC NORFLEET,

)
)
)
)
)
)

Plaintiff,
vs.
---- JOHN BALDWIN, — SHERRY BENTON,
JACQUELINE LASHBROOK,
SAMUEL FURLOW,
LAWLESS,
JOHN DOES ORANGE CRUSH
MEMBERS,
GAETZ,
TOMAS SPILLER,
NEWMAN, and
ILLINOIS DEPARTMENT OF
CORRECTIONS

Case No. 18-CV-1758-MJR

)
)
)
)
)
)
)
)
)
)
)
)
)

Defendants.

MEMORANDUM AND ORDER
REAGAN, Chief District Judge:
Plaintiff Marc Norfleet, an inmate in Menard Correctional Center, brings this action for
deprivations of his constitutional rights pursuant to 42 U.S.C. § 1983. Plaintiff requests monetary
damages. This case is now before the Court for a preliminary review of the Amended Complaint
pursuant to 28 U.S.C. § 1915A, which provides:
(a) Screening - The court shall review, before docketing, if feasible or, in any
event, as soon as practicable after docketing, a complaint in a civil action in which a
prisoner seeks redress from a governmental entity or officer or employee of a governmental
entity.
(b) Grounds for Dismissal - On review, the court shall identify cognizable
claims or dismiss the complaint, or any portion of the complaint, if the complaint(1) is frivolous, malicious, or fails to state a claim on which
---- xeiiefmayJje granted;, or__ __ _________________ _____________
1
■•J

! )

n

\

Case 3:18-cv-01758-MJR Document 17 Filed 12/04/18 Page 2 of 7 Page ID #173

(2) seeks monetary relief from a defendant who is immune
from such relief.
An action or claim is frivolous if “it lacks an arguable basis either in law or in fact.” Neitzke
v. Williams, 490 U.S. 319,325 (1989). Frivolousness is an objective standard that refers to a claim
that any reasonable person would find meritless. Lee v. Clinton, 209 F.3d 1025,1026-27 (7th Cir.
2000). An action fails to state a claim upon which relief can be granted if it does not plead “enough
facts to state a claim to relief that is plausible on its face.” Bell Atlantic Corp. v. Twombly, 550
U.S. 544, 570 (2007). The claim of entitlement to relief must cross “the line between possibility
and plausibility.” Id. at 557. At this juncture, the factual allegations of the pro se complaint are
to be liberally construed. See Rodriguez v. Plymouth Ambulance Serv., 577 F.3d 816, 821 (7th
Cir. 2009).
Upon careful review of the Amended Complaint and any supporting exhibits, the Court
finds it appropriate to exercise its authority under § 1915A; this action is subject to summary
dismissal.
The Amended Complaint
Plaintiff originally filed suit on September 24, 2018. (Doc. 1). He filed an Amended
Complaint on November 7, 2018. (Doc. 11). On November 20, 2018, the Court determined that
the Amended Complaint contained mis-joined claims, and severed Plaintiffs claims into separate
suits. As relevant to the claims proceeding in this action, Plaintiff has alleged the following:
Plaintiff alleges that Defendants Lawless and John Doe members of the Orange Crush team
destroyed Plaintiffs TV, causing $201.25 worth of damages while Newman watched. (Doc. 11
p. 7). Plaintiff does not specifically state when this happened, but alleges that he filed a case in
the Illinois Court of Claims, No, 15. CC 1341 seeking reimbursement for his TV on November 7,
_2014. Id. Plaintiff also alleges that at the time the TV was broken, Lawless and Spiller failed to
2
( ^ •'

-U

>»

Case 3:18-cv-01758-MJR Document 17 Filed 12/04/18 Page 3 of 7 Page ID #174

either enter his cell, confirming the break, or allow him to leave his cell to take the broken TV to
personal property. (Doc. 11, p. 8). As a result, when staff investigated Plaintiffs grievance 6
months later, he was unfairly disciplined for having a working TV at that time. (Doc. 11, pp. 89). When Plaintiff was sent to segregation because of this ticket, his personal property was never
forwarded to him, causing further deprivation. (Doc. 11, p. 10). Plaintiff alleges his remedy in
the Illinois-Court of Claims is inadequate because the state court ignored the facts: Idr ' -------Plaintiff also alleges that EDOC, Baldwin, and Lashbrook denied Plaintiff the ability to
exhaust his administrative remedies to the ARB, and Benton failed to timely process the
grievances, thus denying him access to the Illinois Court of Claims. (Doc. 11, p. 18).
Discussion
The severance order designated 3 claims for this action:
Count 1 - Lawless, John Doe Orange Crush Members, Newman, Spiller; Gaetz,
Benton, and Baldwin deprived Plaintiff of his due process rights when they shook
down his cell sometime in 2014 and destroyed his property;
Count 2 - Furlow, Spiller, Gaetz, and Benton further deprived Plaintiff of due
process and/or equal protection rights by depriving him of his personal property by
writing him a disciplinary report about the grievances he filed regarding the initial
property damage, which caused Plaintiff to be sent to segregation without his
property and/or condoned such conduct;
Count 3 - Lashbrook, Illinois Department of Corrections (“IDOC”), Baldwin, and
Benton deprived Plaintiff of his access to courts by failing to respond to his
grievances regarding his lost personal property that formed the subjects of his Court
of Claims suits: 15 CC 1341 and 17 CC 00782.
Plaintiffs claims are legally frivolous and will be dismissed with prejudice. Plaintiff
alleges that the confiscation of his personal property denied him of his due process rights in Counts
1 and 2. To state a claim under the due process clause of the Fourteenth Amendment, Plaintiff
must establish a deprivation of liberty or property without due process oflaw, if the state provides
an adequate remedy, Plaintiff has no civil nghts claim. Hudson v. Palmer, 468 U.S. 517, 530-36
3_

Case 3:18-cv-01758-MJR Document 17 Filed 12/04/18 Page 5 of 7 Page ID #176

As an initial matter, IDOC is an improper defendant because it is a state government
agency. The Supreme Court has held that “neither a State nor its officials acting in their official
capacities are‘persons’ under§ 1983.” Will v. Mich. Dep ’t ofState Police, 491 U.S. 58,71 (1989).
See also Wynn v. Southward, 251 F.3d 588, 592 (7th Cir. 2001) (Eleventh Amendment bars suits
against states in federal court for money damages.); Billman v. Ind. Dep’t o/Corr., 56 F.3d 785,
788 (7th Cir. 1995) (state Department of Corrections is immune from suit by virtue of Eleventh
Amendment); Hughes v. Joliet Corr. Ctr., 931 F.2d 425, 427 (7th Cir. 1991) (same); Santiago v.
Lane, 894 F.2d 218, 220 n. 3 (7th Cir. 1990) (same). Accordingly, IDOC will be dismissed with
prejudice.
A prisoner states an access to courts claim when he shows that he suffered an actual injury
and that the injury caused a detriment that affected meritorious litigation. Lewis v. Casey, 518
U.S. 343. 348 (1996); Devbrow v. Gallegos, 735 F.3d 584 (7th Cir. 2013;. Lehn v. Holmes, 364
F.3d 862, 868 (7th Cir. 2004).
However, a prisoner has no constitutional right to access the Illinois Court of Claims
because the right of access to courts applies only to habeas corpus and civil rights filings. Lewis
v. Casey, 518 U.S. 343 (1996); Cunningham v. Washington, 16 F. App’x 502, 505 (7th Cir. 2001)
(upholding dismissal of prisoner’s claim that his transfer out of state deprived him of the
opportunity' to pursue a claim in the Illinois Court of Claims regarding the confiscation of his
property). Cunningham also expressed doubt that an inmate could ever pursue a First Amendment
access to courts claim based on the denial of an administrative grievance. 16 F. App’x at 505
(calling it a “novel” theory of recovery). As there is no constitutional right to access the Illinois
Court of Claims, Plaintiffs allegations that the Defendants deprived him of his First Amendment
rights are legally frivolous.

5/f':
\£)

SaW

Case 3:18-cv-01758-MJR Document 17 Filed 12/04/18 Page 6 of 7 Page ID #177

Pending Motions
Plaintiff filed two documents on November 28,2018. The first takes issue with the Court’s
decision to deny him leave to file a Third Amended Complaint prior to screening. (Doc. 15). The
Court finds no error in its prior decision. Furthermore, the Court finds that any amendment would
be futile to cure the issues identified above. Accordingly, to the extent that Doc. 15 requests relief,
it is DENIED. (Doc. 15).
Plaintiff also filed a Motion for Objection and Renewed Request to Revive Defendant Jane
Doe 1. (Doc. 16). Although Jane Doe 1 was dismissed from this action, the claims against her
were severed into case 18-cv-2103-JPG. Accordingly, the Clerk of Court is DIRECTED to file
Doc. 16 in case 18-cv-2103-JPG. The motion shall be TERMINATED in this action. (Doc. 16).
Disposition
IT IS HEREBY ORDERED that the Amended Complaint is DISMISSED with
prejudice as legally frivolous. This shall count as a “strike” for purposes of 28 U.S.C. 1915(g).
Plaintiff now has two strikes, which he must disclose in all future litigation. To the extent the
Response at Doc. 15 requests relief, it is DENIED. (Doc. 15). The Clerk of Court is DIRECTED
to terminate Doc. 16 and file a copy of that motion in case 18-cv-2103-JPG.
If Plaintiff wishes to appeal this dismissal, his notice of appeal must be filed with this Court
within thirty days of the entry of judgment. Fed. R. App. P. 4(a)(1)(A). A motion for leave to
appeal in forma pauperis should set forth the issues Plaintiff plans to present on appeal. See FED.
R. App. P. 24(a)(1)(C). If Plaintiff does choose to appeal, he will be liable for the $505.00 appellate
filing fee irrespective of the outcome of the appeal.

See Fed. R. App. P. 3(e); 28 U.S.C.

§ 1915(e)(2); Ammons v. Gerlinger, 547 F.3d 724, 725-26 (7th Cir. 2008); Sloan v. Lesza, 181
F.3d 857,858-59 (7th Cir. 1999); Lucien v. Jockisch, 133 F.3d 464,467 (7th Cir. 1998). Moreover,

%

1

Case 3:18-cv-01758-MJR Document 17 Filed 12/04/18 Page 7 of 7 Page ID #178

if the appeal is found to be nonmeritorious, Plaintiff may also incur another “strike.” A proper and
timely motion filed pursuant to Federal Rule of Civil Procedure 59(e) may toll the 30-day appeal
deadline. Fed. R. App. P. 4(a)(4). A Rule 59(e) motion must be filed no more than twenty-eight
(28) days after the entry of the judgment, and this 28-day deadline cannot be extended.
The Clerk of Court is DIRECTED to close this case an enter judgment.
IT IS SO ORDERED.
DATED: December 4, 2018
s/ MICHAEL J. REAGAN
U.S. Chief District Judge

©

eup.w

